	



                                 NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




          OFFICE OF
    I NSPECTOR GENERAL




    MEMORANDUM

    Date:           August 30, 2002

    To:             Ms. Donna Fortunat, Director
                    Division of Contracts and Oversight (CPO)

                    Ms. Mary Santonastasso, Director
                    Division of Grants and Agreements (DGA)
	




                                 Houston Independent ;School District,:'
                                      3830 Richmond `Avenue
                                       Houston,' Texas 77027


               National Science Foundation `Cooperative Agreement Number ESR-9816227'

                                          Financial Schedule:



                                   Independent Auditor' Reports


                          For the period-September 1999 to June            2001




                                                                  McBRIDE LOCK & ASSOCIATES

    AUG 23,   2002
                                                                                  CERTIFIED PUBLIC ACCOUNTANTS
                                                                                                     KANSAS CITY
                 Houston Independent School District
                      3830 Richmond Avenue
                       Houston, Texas, 77027


National Science Foundation Cooperative Agreement Number ESR-9816227

                          Financial Schedule

                                  and

                    Independent Auditor's Reports


           For the period September 1, 1999 to June 30, 2001
                             Houston Independent School District

                                      Table of Contents


                                                                    Page

Section I - Introduction and Audit Results:
       Background                                                    1
       Audit Objectives, Scope, and Methodology                      1
       Summary of Audit Results                                      2
       Follow-up of Prior Audit Findings                             2
       Exit Conference                                               2

Section II - Independent Auditor's Reports:
       Independent Auditor's Report on the Financial Schedule        3
       Independent Auditor's Report on Compliance                    5
       Independent Auditor's Report on Internal Control Structure    7

Section III - Financial Schedule:
       Schedule A - Schedule of Award Costs                          9
       Notes to the Financial Schedule                              10

How to Contact the Office of Inspector General                      12
           SECTION I

INTRODUCTION AND AUDIT RESULTS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                                          BACKGROUND

        We audited the funds awarded by the National Science Foundation (NSF) to the Houston
Independent School District (HISD) under Cooperative Agreement No. ESR-9816227, for the
period September 1, 1999 through June 30, 2001. This award to HISD, a citywide school
district, supports HISD's project to advance significantly the educational system in mathematics,
science, and technology for all of its students through the Houston Urban Learning Initiatives in
a Networked Community (HU-LINC). The purpose of the award is to stimulate dramatic
improvement in (1) teaching and learning that leads to high achievement in challenging science
and mathematics by all students, enabling significantly more students to pursue careers in
science, mathematics, and technology (SMT); (2) establish and expand a unified system of
coalitions that link students, teachers, families, and community members in Houston's
educational institutions with the city's vast and diverse resources in meaningful ways; and (3)
establish an infrastructure that aligns the district's policies, procedures, organizational structures,
curricula, professional development and evaluation systems, and resources in order to sustain the
highest quality of student learning of rigorous SMT.

       The award is granted for the period from September 1, 1999 through August 31, 2004.
NSF intends to provide up to $15,000,000 and HISD agreed to provide cost sharing in the
amount of $8,418,483 to support the project for the entire award period. Under the agreement,
NSF through March 31, 2001 has agreed to provide HISD a total of $4,265,390, which HISD
agreed to match with $2,984,875. From September 1, 1999 through June 30, 2001, HISD has
claimed costs aggregating $2,346,274, as NSF funding and $5,453,461, as its cost sharing.

                    AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of our audit were to determine whether:

               •   Costs charged to the NSF award by HISD are allowable, allocable, and
                   reasonable, in accordance with the applicable Federal cost principles
                   and award terms and conditions; and

               •   HISD's systems of internal controls are adequate to properly
                   administer, account for, and monitor its NSF awards in compliance
                   with NSF and Federal requirements.

       Our audit was made in accordance with generally accepted auditing standards, the
Government Auditing Standards (1994 Revision) issued by the Comptroller General of the
United States, and the NSF Audit Guide (September 1996). Consequently, we planned and
performed the audit to obtain reasonable assurance about whether the amounts claimed to NSF as
presented in the schedule of award costs (Schedule A), are free of material misstatement. Our


                                                  1
	




    audit also assessed the accounting principles used and significant estimates made by the
    Awardee and evaluated the overall financial schedule presentation.

            To achieve our audit objectives, we examined, on a test basis, evidence supporting the
    amounts and disclosures in Schedule A. Based on an assessment of risk, we selected a
    nonstatistical sample of costs claimed under the award to test for compliance with Federal award
    requirements. Based upon this sampling method, questioned costs in this report may not
    represent total costs that may have been questioned had all expenditures been tested. In addition,
    we have made no attempt to project such costs to total costs claimed, based on the relationship of
    costs tested to total costs. However, we believe our audit provides a reasonable basis for our
    opinion.

                                  SUMMARY OF AUDIT RESULTS

            Our audit of the financial report submitted by HISD to NSF on the following award did
    not disclose any questioned costs. Questioned costs are costs for which there is documentation
    that the recorded costs were expended in violation of the law, regulations or specific conditions
    of the award or those costs which require additional support by the Awardee or which require
    interpretation of allowability by the NSF - Division of Contracts, Policy and Oversight.


                                                Award          Claimed         Questioned
           NSF Award Number                     Budget	         Costs	           Costs

           ESR-9816227                         $4,265,390     $2,346,274        $	   -0-


           The audit also found HISD's systems of internal controls to be reasonably adequate to
    properly administer, account for, and monitor its NSF awards in compliance with NSF and
    Federal requirements.

                            FOLLOW-UP OF PRIOR AUDIT FINDINGS

           There was no prior audit of NSF awards to the HISD. HISD's Fiscal Year 2000 Office
    of Management and Budget Circular A-133 audit did not include this award as a major program
    and did not have any internal control or compliance findings.

                                         EXIT CONFERENCE

           An exit conference was held on January 18, 2002 at HISD's office located at 3830
    Richmond Avenue, Houston, Texas. HISD was informed that no findings or recommendations
    would be reported.

    For Houston Independent School District


    For McBride, Lock & Associates



                                                   2
          SECTION II


INDEPENDENT AUDITOR'S REPORTS
	




    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    McBRIDE, LOCK & ASSOCIATES



                  INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL SCHEDULE


       National Science Foundation
       Office of Inspector General
       4201 Wilson Boulevard
       Arlington, Virginia 22230

               We audited the costs claimed by the Houston Independent School District (HISD) to the
        National Science Foundation (NSF) on the Federal Cash Transactions Report - Federal Share of
        Net Disbursements for the NSF award listed below. This Federal Cash Transactions Report, as
        presented in the schedule of award costs (Schedule A) is the responsibility of HISD's
        management. Our responsibility is to express an opinion on this schedule based on our audit.

                         Award Number             Award Period                Audit Period

                          ESR-9816227            9/1/99 - 8/31/04           9/1/99 - 6/30/01

                We conducted our audit in accordance with generally accepted auditing standards, the
        Government Auditing Standards (1994 Revision), issued by the Comptroller General of the
        United States, and the NSF Audit Guide (September 1996). Those standards and the NSF Audit
        Guide require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedule is free of material misstatement. An audit includes examining, on a test
        basis, evidence supporting the amounts and disclosures in the financial schedule. An audit also
        includes assessing the accounting principles used and significant estimates made by
        management, as well as evaluating the overall financial schedule presentation. We believe our
        audit provides a reasonable basis for our opinion.

                The accompanying. financial schedule was prepared for the purpose of complying with
        the requirements of the NSF Audit Guide as described. in Note 1, and is not intended to be a
        complete presentation of financial position in conformity with generally accepted accounting
        principles.

               In our opinion, the financial schedule referred to above presents fairly, in all material
        respects, the costs claimed on the Federal Cash Transactions Report - Federal Share of Net
        Disbursements as presented in the schedule of award costs (Schedule A), for the period
        September 1, 1999 to June 30, 2001 in conformity with the NSF Grant Policy Manual, the
        award agreement, and basis of accounting described in Note 1.
       In accordance with Government Auditing Standards, we have also issued a report dated
January 18, 2002 on our consideration of HISD's internal control structure and a report dated
January 18, 2002 on its compliance with laws and regulations.

        This report is intended solely for the information and use of the NSF, the HISD's
management, the NSF's Office of Inspector General, the Office of Management and Budget, and
the Congress of the United States, and is not intended to be, and should not be used by anyone
other than these specified parties.




January 18, 2002




                                              4
	




    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    McBRIDE, LOCK & ASSOCIATES




                            INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE


        National Science Foundation
        Office of Inspector General
        4201 Wilson Boulevard
        Arlington, Virginia 22230

               We audited the schedule of award costs, as presented in Schedule A which summarizes
        the financial reports submitted by the Houston Independent School District (HISD) to the
        National Science Foundation (NSF) for the award listed below, and have issued our report
        thereon dated January 18, 2002.

                         Award Number       Award Period         Audit Period

                         ESR-9816227        9/1/99 - 8/31/04     9/1/99 - 6/30/01

                We conducted our audit in accordance with generally accepted auditing standards, the
        Government Auditing Standards (1994 Revision), issued by the Comptroller General of the
        United States, and the NSF Audit Guide (September 1996). Those standards and the NSF Audit
        Guide require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedule is free of material misstatement.

                Compliance with applicable laws and regulations and the provisions of the award
        applicable to HISD is the responsibility of HISD's management. As part of obtaining reasonable
        assurance about whether the financial schedule is free of material misstatement, we performed
        tests of HISD's compliance with certain provisions of applicable laws, regulations, and the
        provisions of the award. However, providing an opinion on overall compliance with such
        provisions was not an objective of our audit of the financial schedule. Accordingly, we do not
        express such an opinion. The results of our tests disclosed no instances of noncompliance that
        are required to be reported under Government Auditing Standards and the NSF Audit Guide.




                                                      5
6
	




    SUITE 406
    1221 BALTIMORE AVE.
    KANSAS CITY, MO 64105
    TELEPHONE: (816) 221-4559
    FACSIMILE: (816) 221-4563
    CERTIFIED PUBLIC ACCOUNTANTS



    McBRIDE, LOCK & ASSOCIATES




              INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL STRUCTURE


        National Science Foundation
        Office of Inspector General
        4201 Wilson Boulevard
        Arlington, Virginia 22230

               We audited the schedule of award costs, as presented in Schedule A which summarizes
        the financial report submitted by the Houston Independent School District (HISD) to the
        National Science Foundation (NSF) for the award listed below, and have issued our report
        thereon dated January 18, 2002.

                         Award Number         Award Period          Audit Period

                          ESR-9816227       9/1/99 - 8/31/04      9/1/99 - 6/30/01

                We conducted our audit in accordance with generally accepted auditing standards, the
        Government Auditing Standards (1994 Revision), issued by the Comptroller General of the
        United States, and the NSFAudit Guide (September 1996). Those standards and the NSF Audit
        Guide require that we plan and perform the audit to obtain reasonable assurance about whether
        the financial schedule is free of material misstatement.

                HISD's management is responsible for establishing and maintaining an internal control
        structure. In fulfilling this responsibility, estimates and judgments by management are required
        to assess the expected benefits and related costs of internal control structure policies and
        procedures. The objectives of an internal control structure are to provide management with
        reasonable, but not absolute, assurance that assets are safeguarded against loss from unauthorized
        use or disposition, and that transactions are executed in accordance with management's
        authorization and recorded properly to permit the preparation of financial schedules in
        accordance with accounting principles prescribed by NSF. Because of inherent limitations in
        any internal control structure, errors or irregularities may nevertheless occur and not be detected.
        Also, projection of any evaluation of the structure to future periods is subject to the risk that
        procedures may become inadequate because of changes in conditions or that the effectiveness of
        the design and operation of policies and procedures may deteriorate.




                                                         7
8
This page has been redacted
	




                                  Houston Independent School District
                                   Notes to the Financial Schedules
                                From September 1, 1999 - June 30, 2001


    1.     Summary of Significant Accounting Policies:

    Accounting Basis

    The accompanying financial schedule has been prepared in conformity with National Science
    Foundation (NSF) instructions. Schedule A has been prepared from the reports submitted to
    NSF. The basis of accounting utilized in preparation of these reports differs from generally
    accepted accounting principles. The following information summarizes these differences:

    A.     Equity

           Under the terms of the award, all funds not expended according to the award agreement
           and budget at the end of the award period are to be returned to NSF. Therefore, the
           awardee does not maintain any equity in the award and any excess of cash received from
           NSF over final expenditures is due back to NSF.

    B.     Equipment

           Equipment purchases were not provided for in the NSF award.

    C.     Inventory

           Minor materials and supplies are charged to expense during the period of purchase. As a
           result, no inventory is recognized for these items in the financial schedule.

    2.     Income Taxes

           Houston Independent School District is a local governmental entity and is exempt from
           income taxes under the Internal Revenue Code.

    3.    NSF Cost Sharing

          As set forth in the grant award, the approved cost sharing was as follows:

                                            National             Total
                            Cost             Science            Project
                           Sharing         Foundation           Budget

                          $2,984,875       $4,265,390          $7,250,265




                                                  10
	




    4.   Indirect Cost Rate:

         •
         •
                Type of rate authorized for award - predetermined fixed rate of 2.523%.

         •
                Period of rates - September 1, 1999 to August 31, 2004.
                Indirect cost rate used to claim cost - based on total direct costs.




                                               11
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
          www.oig.nsf.gov

            Email Hotline
           oig@ nsf.gov

             Telephone
            703-292-7100

    Toll-free Anonymous Hotline
            1-800-428-2189

                 Fax
            703-292-9158

                 Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
        Arlington, VA 22230




                 12
